<html>
<title> - IMPLEMENTING THE AGRICULTURE. IMPROVEMENT ACT OF 2018</title>
<body><pre>[Senate Hearing 116-126]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-126

                      IMPLEMENTING THE AGRICULTURE
                        IMPROVEMENT ACT OF 2018

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2019

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.govinfo.gov/
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-222 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
       
       
       
       
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CINDY HYDE-SMITH, Mississippi        MICHAEL F. BENNET, Colorado
MIKE BRAUN, Indiana                  KIRSTEN E. GILLIBRAND, New York
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
CHARLES GRASSLEY, Iowa               TINA SMITH, Minnesota
JOHN THUNE, South Dakota             RICHARD J. DURBIN, Illinois
DEB FISCHER, Nebraska

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                      Thursday, February 28, 2019

                                                                   Page

Hearing:

Implementing the Agriculture Improvement Act of 2018.............     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                                WITNESS

Perdue, Hon. Sonny, Secretary, U.S. Department of Agriculture, 
  Washington, D.C................................................     5
                              ----------                              

                                APPENDIX

Prepared Statements:
    Perdue, Hon. Sonny...........................................    42

Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    Prepared Statement Submitted for the Record from Hon. Richard 
      J. Durbin..................................................    48
Question and Answer:
Perdue, Sonny:
    Written response to questions from Hon. Pat Roberts..........    52
    Written response to questions from Hon. John Boozman.........    66
    Written response to questions from Hon. John Thune...........    68
    Written response to questions from Hon. Debbie Stabenow......    70
    Written response to questions from Hon. Patrick J. Leahy.....   106
    Written response to questions from Hon. Sherrod Brown........   128
    Written response to questions from Hon. Michael Bennet.......   131
    Written response to questions from Hon. Robert P. Casey, Jr..   134
    Written response to questions from Hon. Tina Smith...........   138
    Written response to questions from Hon. Richard J. Durbin....   142

 
                      IMPLEMENTING THE AGRICULTURE.
                        IMPROVEMENT ACT OF 2018

                              ----------                              


                      Thursday, February 28, 2019

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Boozman, Hoeven, Ernst, Hyde-Smith, Braun, Grassley, Thune, 
Fischer, Stabenow, Brown, Klobuchar, Bennet, Gillibrand, Casey, 
Smith, and Durbin.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. I call this hearing of the Senate 
Agriculture, Nutrition, and Forestry Committee to order. This 
is our first hearing of the 116th Congress. Hopefully more will 
be in attendance. We are taking names.
    This morning I would like to welcome Senator Braun, who is 
not here but we will welcome him anyway. We are glad to add his 
first-hand experience managing timberland and working with the 
turkey operation. I would like to offer a special welcome to 
Senator Durbin to the Agriculture Committee this Congress. He 
is the Minority Whip. He has been in leadership as long as I 
can remember. We have had a long history going back to the 
House of Representatives, when he used to rustle our mandatory 
cows and use them for discretionary purposes.
    [Laughter.]
    Chairman Roberts. I will offer him a rebuttal any time that 
he seeks that.
    Senator Durbin and I have worked on the SIREN bill, in the 
farm bill, and got that done, which passed, and it is a good 
thing.
    So we are very pleased today to welcome our distinguished 
Secretary, Sonny Perdue, back to the Agriculture Committee. 
Welcome back, Sonny. Secretary Perdue is no stranger to the 
Committee. In fact, we successfully worked in a bipartisan, 
bicameral manner to craft the farm bill, the Agriculture 
Improvement Act of 2018.
    I want to emphasize that the Department, led by Secretary 
Perdue, was an important part of the process. Over the last 2 
years, the Department offered--we asked, they offered--valuable 
technical advice throughout the drafting and conference stages. 
That was extremely helpful, Mr. Secretary, and I thank you and 
all of your staff.
    When the 2018 farm bill was signed by the President last 
December it accomplished what we set out to do--provide 
certainty and predictability for farmers, families, and rural 
communities. I think those two words, certainty and 
predictability, were probably used by Senator Stabenow and I at 
least a 1,210 times.
    Now we look forward to hearing about the Department's 
efforts to implement the new farm bill. We will work together 
to ensure that these programs are operating as Congress 
intended and that changes are implemented as promptly as 
possible.
    I am going back two pages--first hearing of the 116th 
Congress and I would like to welcome, since he is now in the 
room and seated to my immediate left, Senator Braun, to the 
Committee. We are glad to have his firsthand experience. He is 
managing timberland and working with the turkey operation and 
has great experience in that regard. Thank you for joining the 
Committee.
    Throughout the farm bill process we consistently heard 
about the challenges producers have been facing in farm 
country, and right now producers in Kansas and across the 
country continue to face this rough patch. Over the past 5 
years, prices for many of our major commodities have dropped 
significantly. As a result, net farm income is expected to 
decline by approximately 50 percent. I do not know of any other 
part of the economy that is going through this kind of a 
problem, and that has been going on now for four to 5 years.
    The ongoing pressure of low commodity prices continues the 
need for high-volume sales. Now, more than ever, our producers 
need certainty and predictability on the trade front, on the 
policy front, and on the regulatory front.
    The 2018 farm bill provides much-needed certainty and 
predictability to farmers and ranchers across all regions, all 
crops, as promised. The bill provides additional resources and 
risk management tools for producers. It makes improvements to 
the Price Loss Coverage and Agriculture Risk Coverage program 
while providing a new election, a new opportunity for farmers, 
and future opportunities to change those decisions. 
Importantly, producers maintain the ability to plant for the 
marketplace, not the government.
    This farm bill strengthens and improves the crop insurance 
program, something we heard loud and clear from producers 
throughout our listening process. Secretary Perdue, if you 
could whisper that to the budget folks preparing the 
President's budget it would be very much appreciated.
    We maintain and strengthen the Environmental Quality 
Incentives Program, EQIP, and other core voluntary conservation 
programs that farmers and ranchers use to improve their 
productivity and address natural resource concerns.
    The bill also focuses on program integrity and common-sense 
investments to strengthen our nutrition programs, to ensure the 
long-term success of those in need of assistance. With trade 
and market uncertainty it provides predictability and 
additional funding for our trade promotion and export programs.
    Additionally, the bill provides investment in research, new 
technology, lines of credit, and proper risk management. It 
empowers the government to provide tools, and then hopefully 
get out of the producer's way. Finally, the farm bill provides 
regulatory certainty and assists livestock producers facing the 
threat of animal disease.
    In summary, in this Committee, we were successful at 
reaching a bipartisan, bicameral agreement on a strong farm 
bill in a tough yet timely manner, and we look forward to 
working with the Department to ensure that implementation 
provides much-needed certainty and predictability in farm 
country.
    I now turn to my distinguished colleague and partner, the 
Ranking Member, Senator Deborah Stabenow, for her opening 
remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman, very much, 
and it is great to be back in the committee room for our first 
hearing in the new Congress. I do want to recognize our two new 
members and fellow Midwesterners, Senator Braun and Senator 
Durbin. Mr. Chairman, I think having a senior member of the 
Appropriations Committee may turn out to be a good thing on the 
authorizing committee as well, and so we welcome both of them.
    Of course, we want to thank Secretary Perdue for joining us 
again today. Mr. Secretary, when you were here last time we 
were deeply involved in working to draft the 2018 farm bill, 
and by the end of the year, as you know, we passed a strong and 
historic final bill with the support of 87 Senators and 369 
House members. Mr. Chairman, I think that was a record! Of 
course I want to thank you for being an outstanding leader and 
a partner in this effort.
    Now our farmers and families and rural communities are 
counting on the USDA to implement the farm bill quickly and 
effectively. This is especially true in my home State of 
Michigan where agriculture supports one out of four jobs. My 
State is the top producer of specialty crops, Mr. Secretary, as 
you know, from tart cherries to asparagus. We are also a major 
exporter of soybeans and dairy products. We have farmers who 
sell fresh local food to their neighbors and farmers who market 
their products around the world, and both are incredibly 
important.
    We have burgeoning urban farms in cities like Detroit and 
thriving small towns, surrounded by multigenerational family 
owned operations. In Michigan, we know the strength of our 
agriculture economy is rooted in our diversity. The 2018 farm 
bill celebrates that diversity and creates new opportunities 
for farmers and families all across the country.
    I am eager to see it implemented. Despite facing a 
challenging budget, we secured permanent funding for several 
important priorities, including historic investments in organic 
research, local food systems and export promotion that will 
help our farmers tap into emerging markets, which is so 
critical right now, given the trade situation.
    Permanent support for veterans, socially disadvantaged and 
beginning farmers will ensure a bright future for agriculture 
for many years to come. Our long-term investment in nutrition 
incentives and new produce prescriptions will improve access to 
healthy food for children and families for generations.
    We established an Office of Urban Agriculture and provided 
historic new tools for urban farmers that will bring jobs and 
fresh food into local communities. We protected and enhanced 
tools that will help farmers preserve our land, improve water 
quality, and support climate-smart agriculture.
    We made strong investments in rural America including 
expanding high-speed internet and re-establishing the Under 
Secretary for Rural Development. I look forward to the quick 
nomination of a qualified candidate. We also expanded access to 
risk management tools like crop insurance, which our Chairman 
has been the champion of for so long. This will ensure that all 
farmers, no matter what they grow and where they grow it, can 
protect their livelihoods. We dramatically improved the dairy 
safety net to help dairy farmers weather the instability they 
have faced for too long.
    I had a good conversation with Deputy Secretary Censky 
recently about the new dairy program and other implementation 
issues. Mr. Secretary, I heard your testimony yesterday in the 
House. I appreciate the USDA's commitment to prioritize the new 
dairy program's implementation.
    While I had hoped for a quicker start to the sign-up, there 
is still plenty of outreach work that needs to be done in the 
interim. I encourage you to use every tool at your disposal to 
reach all eligible dairy producers and get payments out as soon 
as possible. Only about half of all dairy farms signed up in 
2018, and the new program, which is much stronger, should far 
exceed that mark.
    While there is a lot of positive work happening to 
implement the farm bill, I do need to raise some concerns. Mr. 
Secretary, the farm bill that the President signed into law 
Congress decided not to make harmful changes to nutrition 
assistance. Unfortunately, this administration has proposed a 
partisan rule that makes changes to SNAP that were rejected by 
Congress and would take food assistance away from Americans 
struggling to find steady work.
    This proposal is an end run around the law that would leave 
families hungry while doing nothing to connect people to long-
term employment that we focused on in the farm bill. It will 
face fierce opposition from lawmakers and advocates, and I 
would encourage you to withdraw it.
    I also have questions about the USDA's capacity to 
implement the farm bill. Year after year the President's budget 
proposals have called for steep cuts to USDA staff, and rumor 
has it this year's budget will not be any better for 
agriculture. Congress has rejected these cuts in the past, 
supported the USDA, and instead provided the Department enough 
resources to fill vacant positions and support our farmers.
    However, I want to know, at this point, why we have so many 
important positions that have remained unfilled. In Michigan, I 
have heard that farmers are worried about lack of staff and a 
growing backlog of work in field offices. Without sufficient 
staff in local offices, the farm bill improvements will not 
reach the very people they are designed to support.
    So, Mr. Secretary, I know you are committed to prioritizing 
strong customer service at the Department and I applaud that 
commitment. These vacancies raise questions about the ability 
to implement the farm bill and provide our farmers and families 
with the level of service they deserve. I look forward to 
hearing more about your plans to quickly and properly implement 
the farm bill, fill the vacancies, and allow us to support your 
efforts to effectively implement the new farm bill that we 
passed.
    Thank you, Mr. Chairman.
    Chairman Roberts. I now turn to our witness for today's 
hearing. Mr. Secretary, you have been no stranger to this 
Committee, since being confirmed to your role as the 31st 
Secretary of Agriculture. Hailing from the great State of 
Georgia, Secretary Perdue brings valuable experience as a 
farmer, an agribusinessman, a veterinarian, a State legislator, 
and former Governor of the State of Georgia.
    Mr. Secretary, welcome back and we look forward to our 
discussion here today. You may proceed. Thank you for coming.

  STATEMENT OF THE HONORABLE SONNY PERDUE, SECRETARY, UNITED 
       STATES DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Secretary Perdue. Well, thank you, Mr. Chairman, and 
Ranking Member Stabenow. It is again an honor to be with you 
all and your distinguished members of the Committee. Once again 
I hope that we are no stranger to the Committee but not 
necessarily here in this room, but we want to be no stranger at 
all times. When your constituents have questions hopefully you 
have noticed the accessibility that our team has struggled and 
strived to provide for you all as serving your constituents and 
our customers as well. So hopefully you noticed that.
    So I thank you again for the opportunity to testify and 
share USDA's early efforts in implementing the farm bill. We 
reported to the House, as you know, yesterday, on the status of 
the farm economy, and you so rightly described it, Mr. 
Chairman, in your opening remarks, as well as describing the 
farm bill. I want to take this opportunity to congratulate you, 
the Ranking Member, and the members of your Committee for a 
farm bill both introduced and passed in the same year, signed 
on December 20th, there, and that did, I think, provide a big 
boost to the producers, ranchers, farmers across this country 
over what they could expect. I think it is also indicative that 
the bill was evolutionary in improving, in many of the ways 
that you and the Ranking Member have talked about, but 
nonetheless easily assimilated in the path that you took in the 
1914 farm bill, and we look forward to implementing it in an 
expeditious way.
    There is a lot to be done, as you know. There are many 
sections and many parts of that bill. We will not go into the 
data. I know that you all probably know that much better than I 
do, having debated it and going line by line over the last 
year. Nonetheless, it is a complex bill with rules to be 
presented.
    We have got partners in the administration that oversee 
those rules, as you know, with OMB and others, over 
interagencies that we have to coordinate with as well. I may 
have the opportunity to share with you today the flow chart on 
the Administrative Procedures Act that we have to conform with 
in getting these rules and the granularity of the farm bill 
introduced.
    Nonetheless, you so rightly stated about the state of the 
farm economy, working capital, farm income. Those kinds of 
things we have talked about here. While there were, I think, 
some missed opportunities, possibly in forest management and 
improving other issues, I think you have given us the 
opportunity to go forward and move out, and we are doing that 
the best we can. Overall, the new farm bill provides--fulfills, 
I think, the primary goal, as you have stated, of farm programs 
to help farmers and ranchers manage risk and continue to 
producing the food, fiber, fuel that not only our Nation but 
other parts of the world need as well.
    I also appreciate your recognizing that our team at USDA 
provided over 2,000 items of technical assistance, to both 
sides of the aisle in here in trying to provide the data and 
facts upon which you made the policy decisions. So agencies 
started gathering stakeholder input early on as the bill was 
being concluded, on how best to implement the provisions. On 
this past Tuesday, our farm production and conservation team 
held a listening session. Formal and informal listening 
sessions will continue going forward, as we hear the particular 
items of interest and how we can bring clarity. We think 
clarity brings compliance and that is what all of us want in 
the farm bill.
    So as an example of our early efforts on implementation we 
have already allocated Fiscal Year 2019 funding to the 
recipients of the Market Access Program. We know trade is a 
huge issue, market access, foreign market development that you 
all were very favorable to. You mentioned, Mr. Chairman, in 
your comments about whispering about the budget. I would do 
that but my whispering sometimes is not loud enough and you 
have already given your--described your high regard for the 
President's budget anyway and how highly it is viewed in 
Congress sometimes. So, nonetheless, we will continue to do--be 
advocates, as you all are, for our farmers and our advocates 
and our farmers across the country that way.
    We have, in NRCS, during the shutdown, utilized a mandatory 
funding program to keep staff working throughout the shutdown, 
providing significant time to begin rebuilding the framework 
for the new and certainly, I think, improved conservation 
programs that we see. So on our core conservation programs like 
EQIP and CSP and ACEP and RCPP, those are wonderful additions 
that we look forward to implementing.
    Certainly we are interested in rural prosperity, and the 
farm bill, I think, goes some way that way. We know the issues 
we hear across the country repeatedly deal with trade, labor 
regulations, and most recently in the hurricanes, in disaster. 
So we hear that.
    Before I conclude I want to ask respectfully for the 
Committee to move quickly, if at all possible, on our committee 
nominations before you. We are still--we have three nominees--
Dr. Mindy Brashears, for Under Secretary of Food Safety; Naomi 
Erp, for the Assistant Secretary for Civil Rights; and Dr. 
Scott Hutchins, for Under Secretary of Research, Education, and 
Economics. So confirming these three nominees in their 
respective leadership roles will help us continue to make 
strides that we want to in serving you and your constituents.
    So thank you for the opportunity. I look forward to 
answering your questions and having a candid discussion about 
our efforts to again do right and feed everyone. Thank you, 
sir.

    [The prepared statement of Mr. Perdue can be found on page 
42 in the appendix.]

    Chairman Roberts. We thank you, Mr. Secretary. I have just 
about two or three issues, and again, I am going to mention 
those two words, certainty and predictability, that allowed us 
to really pass the farm bill on time, which was, you know, 
quite a push, but we did it in a bipartisan way, which is the 
way to do it. That topped every other issue. Senator Stabenow 
has strong issues, as do I, and so did the House conferees. 
That was the top issue.
    So apply that to trade and that continues to be concern for 
our producers who are currently having conversations with their 
lenders and facing tough decisions on which crops they are 
going to plant this spring, hoping that Mother Nature will 
cooperate.
    The 2018 farm bill protected funding for the important 
export programs while also increasing investment in trade 
promotion and facilitation programs overall. I am pleased to 
hear progress has been made with China. I hope that continues. 
That is at least the information that I get. I am sure you are 
getting the same thing, Mr. Secretary.
    I look forward to receiving the International Trade 
Commission report on the U.S.-Mexico-Canada agreement, USMCA, 
which I fondly call the United States Marine Corps Always, but 
it does stand for NAFTA too. However, while tariffs are in 
place our producers will not be able to realize the full market 
potential.
    My question is what would you tell producers as they make 
these choices in light of the current trade environment?
    Secretary Perdue. I think while farmers are thought to be 
farmers they are also very smart business people and they are 
used to looking at these markets. Last year, the President 
authorized a market facilitation program because their plans 
were uprooted by the trade disruptions we saw in 2018. I think, 
again, the best advice I could give these farmers is to do what 
they have always done. Look at market signals and look at their 
own production schemes about where they think they can become 
most profitable, or maybe in this environment lose the least, 
in order to be successful.
    So I do not think--while we do, as well, hope that these 
conclusions can come to the trade disruptions, I am cautiously 
optimistic, but it is never over until it is over with our 
negotiators and our opponents in this regard, and I think the 
advice would be to look at the markets currently, work out your 
input cost, and see if there is a way to make a profit for this 
year and plant those crops.
    Chairman Roberts. I appreciate that answer. I would only 
comment. Every headline I can see with regards to trade and the 
amount of trade that we are able to achieve, it is just not 
good news. We hope for the best. I give a lot of credit to the 
President for trying to reach a deal with China.
    This use of tariffs results in tariff retaliation. 
Agriculture is first--you know that. We have had to come up 
with a $12 billion mitigation program, which was of some 
assistance, but as we have said at the White House, and you 
were there, we want trade, not aid. I am not going to go into a 
speech on trade--I can do that very easy--but I would get wound 
up and we do not want to do that this morning.
    My next question is the 2018 farm bill suspends our 
commodity program eligibility for base acres on farms that were 
planted entirely to grass and pasture, from 2009 to 2017. My 
good friend, Coop, over here, to my left, is very interested in 
this issue. This provision will impact producers across the 
country, including farmers and ranchers in Kansas, by 
restricting access to the improved Agriculture Risk Coverage--
that is the ARC program--and the Price Loss Coverage program, 
the PLC program.
    Ahead of producer sign-ups and elections, the Farm Service 
Agency needs to define grass and pasture and will need to 
identify base acreage that will be subject to this new 
restriction. These same acres will be eligible for the new 
grassland conservation initiative established in Title 2.
    Mr. Secretary, I know your answer is yes, but will you 
continue to work and consult with us and this Committee ahead 
of the Department making eligibility decisions regarding the 
base acres as this development begins on the new grassland 
conservation initiative?
    Secretary Perdue. Mr. Chairman, your assumption is correct. 
We would love to have the congressional intent behind this 
change in the farm bill. We concur with it but we would like to 
know more specifically, I think, what you and the stakeholders 
feel of how these changes can impact them.
    Chairman Roberts. The 2018 farm bill included Senate 
provisions regulating hemp cultivation. I do not think I have 
seen such interest in something in the farm bill ever since I 
can remember Hadacol, for goodness sakes. It seems like hemp 
has industrial use, health benefits. I see it advertised now. 
My wife called a number to see about this hemp cream, or 
something, but it was just too expensive for us to sort of 
gamble on that. It is rather amazing. Senator McConnell has 
started an absolute prairie fire with regards to hemp.
    What timeframe do you envision for the rulemaking? What 
agencies will the USDA coordinate with to provide this market 
opportunity as quickly as possible?
    Secretary Perdue. Mr. Chairman, we will probably proceed 
very slowly and judiciously in this effort. It is a new crop, 
obviously. We are advising our State partners, who will be 
primarily responsible for administering and regulating this 
crop, that they need to proceed under the 2014 rules currently.
    We believe, as we work through these issues, we will 
probably have more guidance out for the 2020 growing season for 
those interested in hemp. We may be able to do some of the 
things regarding some cross-State lines sooner than that. 
Certainly, for the real details of the hemp provision, we are 
asking States to--they can submit their applications. We 
probably will not judge on those until we get the regulations 
done. There may be an iterative conversations back and forth 
with the State partners.
    Obviously, Kentucky has had probably the most experience. 
We are trying to learn from one another. We have advised our 
State partners that right now they should plan on implementing 
the 2014 bill for those interested in hemp.
    You are absolutely right, it has had more interest than 
probably anything I can remember. As you well know, as 
productive as our farmers and ranchers can be, they could 
easily overwhelm this market before it even gets started.
    Chairman Roberts. I appreciate that. Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman, and 
again, on the point of hemp, I think I have never seen our 
Majority Leader so excited about a provision in the farm bill, 
so I am sure working closely with you.
    First I want to talk about dairy again, and I want to thank 
you for prioritizing the implementation of the dairy program, 
and I appreciate the Department starting to make contact with 
producers earlier this year. It is so important right now, 
getting the word out and giving them tools and having adequate 
staffing from the start, because even though we put a lot of 
flexibility in to help all sizes of dairy farms, there is a 
need for a major effort to reset the perceptions of the old 
program. It is going to be very important to really cast a wide 
net so we can educate all eligible producers on the risk 
management tools, and particularly farmers who did not 
participate before.
    Farmers need the confidence that they can afford to stay in 
business until the new program payments are issued later this 
year. I know, in talking to farmers this week, they are very 
concerned as they are going to their lenders, that the lenders 
do not understand the new program and what is coming, so dairy 
farmers may not be getting the support that they need to make 
it through until the new program payments kick in.
    So in the interim, will you work to quickly provide online 
payment calculators and decision tools so our dairy farmers can 
consider their options very specifically as they work with 
their lenders?
    Secretary Perdue. We will certainly commit to that, Senator 
Stabenow. I think, again, farmers have a great social media 
network that they do. It is called the coffee shop. As dairy 
farmers look at this bill it is sort of a no-lose deal for 
dairymen and hopefully they will hang on. We expect to have 
that calculator out probably in the middle of April, as quickly 
as possible, hopefully before then. We are going to allow those 
farmers with the retroactive insurance and MPP to participate 
beginning in the middle of March, March 18th, and we believe 
that we can have the net refunds for the previous premiums, 
prior premiums there, going out by April 30th. The sign-up for 
all the rules for the new program hopefully by June 17th.
    You can tell I am being very specific and I have asked for 
specificity from our team. Then we believe that we can have the 
payments going out retroactive to January 1st, probably in the 
first week of July, maybe the second week of July. So that is a 
pretty aggressive timeline for a new program, and we are going 
to work certainly accomplish those commitments.
    Senator Stabenow. Well I appreciate your being specific, 
and you know how hard many of our dairy producers, most of 
them, have been hit, so I appreciate that. You mentioned water 
quality initiatives and the Regional Partnerships Program, 
RCPP, and we are very pleased that we have been able to 
strengthen and streamline the proposals as well as increase 
funding for water initiatives. In Michigan we are surrounded by 
water, as you know, and water quality is incredibly important 
to us, from the Flint water crisis to contamination in Lake 
Erie. Agriculture is a big part of the solution.
    So as we are providing historical new tools to help 
producers address water quality issues. I would very much 
appreciate it if you would work with us on pulling together all 
those new tools to create a comprehensive national water 
quality initiative to coordinate all of the USDA's efforts on 
water quality to help educate producers and pinpoint the areas 
of highest need. Obviously, when we look at improvements made 
to the Regional Conservation Partnerships Program and 
prioritizing practices within the Environmental Quality 
Incentives Program, or the new buffer initiatives in CRP and so 
on, there are a lot of new tools available in the new farm 
bill. This is something that is very important, I know, to our 
producers and those across the country. So I am anxious to work 
with you in making water quality one of the top priorities 
moving forward, in terms of implementation of the farm bill, 
and I would like you to comment on that.
    Secretary Perdue. Certainly, and I think, again, you all 
hit the sweet spot on the conservation title of the farm bill, 
and I do not think I have ever seen a proposal in the farm bill 
that was so widely accepted by farmers, producers, ranchers, 
conservationists, wildlife people. I think everyone felt like 
they got something in that.
    You mentioned RCPP, obviously a large-scale landscape type 
of effort that could really help. We look forward to using 
these new tools for water quality, certainly for other things 
as well, including wildlife recreation and others.
    Senator Stabenow. Thank you. Finally, just one other thing, 
Mr. Chairman. Mr. Secretary you have your work cut out for you 
on implementing this bill. There is no question. Unfortunately, 
with the government shutdown, while it was no one at USDA's 
fault, as you know, you were delayed on implementation because 
of everything that happened. We understand that and we know 
that you and your team are working hard.
    I have to raise this again, as I did in my opening 
statement. Just as the President was signing the farm bill into 
law, your department issued a proposed rule that would take 
away food assistance from 755,000 people struggling to find 
stable employment. This is something we debated in the process 
of the farm bill and did not include. My concern is that last 
week you indicated another rulemaking further addressing 
eligibility changes to SNAP would be coming soon.
    We have also been told there may be work underway on other 
issues that were not congressionally authorized. My question 
is, will you be prioritizing implementation of the bipartisan 
farm bill policies first or rulemakings that have not been 
congressionally directed or is not in the farm bill?
    Secretary Perdue. The answer is we will be prioritizing 
implementation of the farm bill, but we can also propose those 
rules as well and will receive comments, I think 90 day on the 
rule that you are referring to.
    I would just submit to you, Senator, that while we 
discussed the issue--you know, the House proposed this in their 
initial bill. It was not accepted by the Senate. What was 
accepted by the Senate and passed was the same bill that has 
been there since the beginning of the welfare reform, recording 
the work requirements of 20 hours per week. What you also 
passed was not a prohibition. It was no change to the fact that 
in one section it says that the Secretary may waive the 
applicability, and we plan to do that for the able-bodied 
adults without dependents. We think, again, the purpose of 
these helps are to help people move to independency.
    I know that we share different views on that. You feel very 
strongly. I feel very strongly. I think many people in America 
feel very strongly that we should help people when they are 
down, but that should not be interminably help there. In fact, 
when President Clinton signed this bill he said it was a--``I 
made my principle for real welfare reform very clear from the 
beginning. First and foremost it should be about moving people 
from welfare to work. It should impose time limits on 
welfare.'' President Clinton.
    This legislation meets those principles. It gives us a 
chance we have not had before to break the cycle of dependency 
that has existed for millions and millions of our fellow 
citizens, exiling them from the world of work. It gives 
structure, meaning, and dignity to the most--to most of our 
lives. This is the same language that was in this bill here 
that you all passed in 2018.
    Senator Stabenow. Mr. Secretary, let me just say, I do not 
think there is anyone who would disagree with what you just 
read from President Clinton. What we have here is a situation 
where Congress increased program integrity, and added more 
dollars on job training to create opportunities for people. The 
only question is whether or not, in cases where States believe 
there are not the opportunities for employment, that they would 
have the flexibility. The language you are talking about is to 
waive the time limit and give States the flexibility to act, 
and I would argue you are going the opposite direction.
    I know we can have this discussion further, but no one is 
suggesting that people should be receiving assistance when they 
could be working. We want everybody to work and we want 
everybody to have the opportunity for that, and our farm bill 
has been focused very much on increasing those job 
opportunities. That is where I think we should be focused 
aggressively moving forward on job training and job 
opportunities for people.
    Secretary Perdue. I agree and I think that is, and really, 
one of the provisions of the rule that we proposed is in those 
particular areas where unemployment, for whatever reason, is 
higher than the national average by a certain point. Those are 
areas that justify waivers and certainly will qualify, but not 
statewide waivers where the statewide unemployment is 4 
percent, Senator.
    Senator Stabenow. Well, that is the difference and I am 
sure there are a lot of Governors that are coming to you about 
your proposals to change their capacity to be able to make 
their State decision.
    Secretary Perdue. They will, but----
    Senator Stabenow. So thank you----
    Secretary Perdue [continuing]. if I----
    Senator Stabenow. Thank you.
    Chairman Roberts. I thank the Ranking Member and I thank 
the secretary----
    Senator Stabenow. We agree on many, many things but this--
--
    Chairman Roberts [continuing]. for this discussion.
    Senator Stabenow [continuing]. is, this is one where we do 
not. So, with all due respect.
    Chairman Roberts. Pardon my interruption.
    Senator Stabenow. Excuse me.
    Chairman Roberts. I have a five-point response but I am 
going to delay that, and Senator Boozman will be next, and I 
know he has something very pertinent, and I will mention these 
five points when we are talking on the floor.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary, for being here, and we really do appreciate all 
of your hard work.
    Like everyone else around the table, I certainly want to 
echo that we would like to get these things in place as soon as 
possible. I think the comment that you made about us providing 
the resources that you need and getting your people in place is 
really pertinent, and the Committee is pretty good about doing 
those things so we are going to be working really hard to do 
that for you.
    As you know, right now, our growers are in the situation, 
making lots of choices, loans, and all of those kind of things. 
What I think would be really helpful is giving as much 
information out as you can, perhaps through Deputy Secretary 
Censky, letting the producers know as much as you can so they 
can start to develop a plan of action.
    One of the things that is a huge issue in my State, and I 
think most of the people sitting around the table, is 
broadband. It is not uncommon for me at all to go to a small 
community and literally, in the evening, children are sitting 
on the back of a pickup or in a car, using the broadband that 
is inside.
    So there is a lot of interest, lots of excitement about the 
potential of the new Reconnect Program at USDA. Can you talk a 
little bit about that and see how you feel like that might help 
us solve some of those problems?
    Secretary Perdue. I think regarding rural prosperity, 
Senator, the topic you suggested has, in my opinion, one of the 
best chances of transformative change from rural poverty 
bridging the urban-rural divide that we see continuing to be 
exacerbated across the country. We are on it. I think, again, 
the proposal of the money you gave us last year for $600 
million, those applications are going to be ready in April. We 
are communicating very much to the stakeholders who have 
expressed interest, public-private partnership over those 
things and the website is up at ReConnect there, that people 
can find that. There has been an immense interest in that.
    My goal in doing that was to administer that and deploy 
those resources in a way that you all trust us to do more, 
because we need a moonshot of broadband connectivity across 
this country in order to do the things that we think will bring 
our Nation back together from a rural-urban perspective. I 
appreciate you mentioning it. There is so much interest and 
excitement among States out here that way. We want do you 
proud.
    Senator Boozman. Well, we appreciate that, and again, I 
think your words would be echoed by everyone around this table 
as to how important it is, so thank you for your leadership in 
that area.
    In regard to trade, and that is something else that I think 
we are all concerned about, we appreciate the hard work on 
China, all the efforts that are being made there. We seem to be 
moving in the right direction. One of my concerns is that as we 
work so hard in that area that we are forgetting about places 
like Japan, which is so, so very important to the beef 
industry, the pork industry, things like that.
    Can you talk a little bit about that and how the tariffs 
now are making it such that we are starting to lose market 
shares that we have worked so hard to get? Can you talk a 
little bit about how that is progressing?
    Secretary Perdue. Certainly. The threat is real. Obviously 
TPP will begin to be implemented this spring, and Ambassador 
Lighthizer and I had several conversations about the 
disadvantage that puts our American producers and experts 
regarding Japan. I think the good news is he is very much aware 
of that. His strategy is to really do an FTA with Japan, 
dealing with agricultural issues, the goal being certainly to 
be equivalent or plus TPP provisions in agriculture that would 
put us in even stead with any other nation in the world.
    Japan is a huge market, typically in the top five. I will 
be going there late spring, I think in May, for the G20 
Agricultural Ministerial. We plan to make that a sales trip as 
well. So while most of the attention and press has been on 
China, Japan is right underneath the surface as far as a 
necessary sales destination.
    Senator Boozman. We appreciate that so much. I know in 
Arkansas probably over 40 percent of the crop grown is 
exported, as you know better than anybody.
    So thank you, Mr. Chairman.
    Chairman Roberts. Senator Klobuchar. I was watching 
television some time back and I saw somebody that really 
resembles you in the middle of a blizzard.
    Senator Klobuchar. That would be me. I just left my snow 
globe behind, Mr. Chairman.
    Chairman Roberts. I see. I see. Well, I think it would be a 
little early for me to call you Madam President.
    Senator Klobuchar. Yes, Okay. That sounds good, though. 
Okay.
    [Laughter.]
    Chairman Roberts. You knew that was coming.
    Senator Klobuchar. All right. Secretary Perdue, welcome. 
Thank you for your good work, and I thank the Chairman and the 
Ranking Member for their leadership on the farm bill.
    I want to start with a non-farm bill issue. This is 
something that Senator Smith and I have been working on, which 
is the problems with the website with the reservation system 
for the Boundary Waters Canoe Area, which is under your 
jurisdiction. What is being done to ensure that the reservation 
system will be operational and functioning in a more reliable 
manner by the deadline of March 4th, which is the new deadline?
    Secretary Perdue. We are--I am told, and we have to rely 
on, obviously, our technological professionals to give us those 
dates, but I am told that we will meet that deadline. 
Unfortunately, we did not meet the deadline for Recreation.gov 
that is so important in your part of the world, and many 
others, from a reservation over our beautiful public lands and 
all those things that people can enjoy. They are telling me 
that they will be able to--it was literally an IT crash. There 
was code that was not done well, in the initial, and so we hope 
to have that done.
    Senator Klobuchar. Okay. Another topic more related to ag, 
the threat of foreign animal disease. Senator Cornyn and I 
worked on a $300 million for permanent mandatory funding to 
create a vaccine bank, and then we also have a new Animal 
Disease Preparedness and Response Program. How is the USDA 
coming along on these? Is there any kind of plans to deploy 
them on a timeline?
    Secretary Perdue. Well, there really are. Under Secretary 
Ibach has been on top of this even before the appropriations 
there in developing this strategy called the three-legged 
stool. It deals with working our early discovery and detection 
with network labs all across there, working with our partners 
in the State and both Mexico and Canada and our borders there 
for early detection, and then to create the vaccine bank.
    I think, again, the industry is waiting on us to sort of 
help them with the technology and which way we are going to go 
in developing the bank. Probably when we make that decision 
there may be more funds needed for the bank itself, but I think 
the industry did a great job in raising awareness. I think you 
all responded well in that regard.
    Senator Klobuchar. Very good. Dairy farms, and more and 
more of them facing closure, and the shutdown did not help 
there. Can you commit to ensuring that the sign-up for the new 
Dairy Margin Coverage program is prioritized?
    Secretary Perdue. I absolutely can. I gave some specific 
dates earlier and we are going to just break our necks to get 
those done.
    Senator Klobuchar. Very good. Well, do not do that 
literally, but, okay.
    So are refund or credit options for the premiums they paid 
into the old program, is that also going to be a priority?
    Secretary Perdue. It will. I think that is one of the 
earlier things we will be able to get done. That is probably 
the refunds, I think on April 30th. Part of the challenge 
there, Senator, in the first, in trying to get the 1914 farm 
bill dairy program done quickly, the first 2 years of those 
sign-ups were done by paper results, and you know that does not 
easily recover. We have to go through all those, the changes, 
the reconstitution of farms, who has it now, and the things we 
do there. So that slowed that, but I think we can have those 
refunds out by the end of April.
    Senator Klobuchar. Thank you. Senator Thune and I have a 
bill that, a provision that got in the farm bill, the 
Agricultural Data Act, and that is studying and ensuring that 
we figure out conservation practices, because we think it will 
be helpful for farm and ranch profitability as well as our 
lands. Can you commit to proceeding with the study quickly and 
to ensuring that it is delegated to the farm production and 
conservation mission area?
    Secretary Perdue. Certainly. We pride ourselves on being 
data-driven, facts-based decisionmakers, and data is good and 
we want to proceed to get as much as we can as quickly as we 
can.
    Senator Klobuchar. Thank you. Then, last, it has been 
almost 5 months since the President instructed the EPA to begin 
the rulemaking process to allow the sale of E15 year-round, 
which would provide a much-needed boost to our rural economy. 
As you know, there have been issues with prices for our 
commodities and other things and this is something that will be 
helpful.
    It is my understanding that a proposed rule still has not 
been published by EPA and that you told the House Ag Committee 
yesterday that the rule will not be completed before the summer 
driving season. Right now it looks like--some reports say it is 
going to be done by June 1st. Do you think it will be finalized 
by June 1st, and what can you do to help us?
    Secretary Perdue. I was speaking on the latest information 
I had. I was overruled by the Acting Administrator yesterday, 
who, based on his confirmation hearings and his vote today I 
think has committed once again to drive his troops in order to 
get that done by June 1st----
    Senator Klobuchar. Okay. Well that----
    Secretary Perdue [continuing]. and we would encourage that.
    Senator Klobuchar [continuing]. that is good news----
    Secretary Perdue. That is the----
    Senator Klobuchar [continuing]. and I bet your words were 
helpful to get it done. So thank you very much.
    Secretary Perdue. Thank you.
    Senator Klobuchar. I appreciate it. I welcome Senator 
Durbin in his new freshman capacity to the Committee, and I 
like because it means my colleague, Senator Smith, is more 
senior than someone on our Committee. So very good. Thank you.
    Chairman Roberts. Thank you, Senator. I note the presence 
of another candidate. We had four candidates on this Committee 
for the highest office in this land. Maybe we could have a 
hearing with just you four.
    Senator Klobuchar. Like an ag debate of some kind? Okay. 
You could moderate it.
    Chairman Roberts. I am just saying.
    Senator Klobuchar. That would be very good. All right.
    Chairman Roberts. I would be very happy to do it. Senator 
Braun.
    Senator Braun. Thank you, Chairman Roberts, and welcome, 
Secretary Perdue. It is a pleasure to be on this Committee. The 
legacy of our State is shown up in the corner there in Senator 
Lugar's portrait. There has been somebody from the Hoosier 
State on this Committee for a long time.
    For me, particularly, I have lived farming. I have lived 
conservation. I got lucky that early on, back in the late 
1980's, I got involved with managing my own ground. I started 
with 100 acres and fell in love with forestry, later ag, and 
have really lived it. So it is good to be on a committee where 
I do not need to be briefed on a bunch of the issues that are 
important.
    I want to start with one. When I was back home about 3 
weekends ago I had three different farmers in a very small 
restaurant come up and ask me the same question, and it would 
have been, we are now having trouble actually maintaining 
ditches on farms that we have done for years. It would be the 
impact of WOTUS, Waters of the U.S.
    I am a conservationist and I appreciate every part of what 
that was about. They are interested in knowing what we might be 
doing, your position, and I know the jurisdiction is through 
the EPA, if that looks like it is going to get easier for them 
to do the simple things that they need to do keep their farm in 
shape. Then after you answer that I have got a broader question 
on about farm markets in general. So can you weigh in on that a 
bit?
    Secretary Perdue. Well, Senator, we are delighted that you 
bring your experience to the Ag Committee and we look forward 
to engaging you on many of the forestry issues. I would really 
like to know more about the farmers and their concerns about 
what they need to do with their ditches. Obviously, waterways 
and ditches are very important for water quality, soil health, 
and many other types of things. NRCS works with them on an 
ongoing basis about that. So I am not sure what the impediments 
they were facing, and maybe you can help us, and we will deal 
directly with that.
    Senator Braun. I think it is probably on the cusp of being 
addressed, because there is a new ruling out there that is 
going to have public airing, I think, in April. It basically 
has gotten to where through that original ruling they are 
uncertain as to what they can do on their own properties, and 
it is involving basic farm maintenance that until the last year 
or so they did not know they had an issue.
    So I would just appreciate it if you would look more into 
it. It would be the single biggest thing that I have heard in 
terms of their day-to-day life and keeping their farm in shape.
    The big issue, though, for most farmers would be that--I 
have been involved in it for so long. I remember back in the 
days of LDPs and corn prices struggling to get to three bucks, 
you know, soybeans having their own problems. Inputs--I think 
to put out an acre of corn it would have been 140 bucks an 
acre, soybeans maybe 70, and now that has been 20 years or so 
ago.
    We have now got prices that are not a whole lot better than 
what it was then, when you were using a lot of government help 
to get you through. Is there the possibility that we can find 
our way out of this by finding new markets, or does the 
industry that has evolved in farming, which looks so different 
to me from what it was 15 to 20 years ago, where it is more 
concentrated. You have got a lot of large companies. I do not 
see them ailing in the same way I do the farmers that make that 
whole industry tick.
    So should we look to government, like we did 15 to 20 years 
ago, through direct payments, LDPs, and all the stuff that we 
have weaned ourselves from, or should the industry itself, 
especially larger corporations, weigh into this with inputs 
being so much higher? They have gone up. They do not seem to 
have come down. I would just be interested in hearing your 
opinion.
    Secretary Perdue. I am just glad to have someone here that 
knows about LDPs from history.
    Senator Braun. Yes.
    Secretary Perdue. To answer your question, I think really 
that is farming, and you know it, I know it. I think the farm 
bill that we have now, in my opinion, is much more balanced to 
market base, to allow farmers to make those decisions over 
inputs versus revenue. I guess I go back to the mantra we used 
to talk about in the grain business--the cure for low prices 
are low prices and the cure for high prices are high prices. 
The market will settle out. We are seeing this down revenue 
because of relatively good growing seasons, worldwide, not just 
in our area but worldwide, for the last four or 5 years since 
they peaked in 1913. I think we are going to see an upturn.
    The potential for trade and the potential for selling more 
products is always necessary, and I think farmers--I think--my 
opinion is we have seen the low. That does not mean we are 
going to bounce back up, but I think we have seen the low in 
the spread, the delta between the input cost and the revenue 
and the commodity prices.
    Senator Braun. Good to hear that and I would just make one 
more note. I think the only thing I see that can give in that 
equation, I would ask the industry itself to be attentive to 
the farmers' concerns because I think there is a little bit of 
room for help there from the people that benefit from what 
farmers produce, as opposed to, you know, reflexing back to 
where government does more.
    Thank you so much.
    Secretary Perdue. One of my most fun things is to jawbone 
them all the time about that.
    Senator Braun. Okay. Good.
    Chairman Roberts. Senator Smith.
    Senator Smith. Thank you, Chair Roberts, and, Secretary 
Perdue, it is wonderful to have you here and I appreciate very 
much the chance to talk with you about the farm bill. I want to 
just start by echoing my colleague's, Senator Klobuchar's 
comments about the reservation system up in the Boundary 
Waters. As you know, this--we talked about this briefly--this 
is an issue that is a core economic issue for Northern 
Minnesota, and people are a little bent out of shape right now.
    So I am hoping--and it sounds like you are confident that 
we will be able to make that March 4th deadline?
    Secretary Perdue. I am confident of what I was told and 
therefore I have confidence in the people that told me that. So 
we are going to do our best to make that effort. I am just 
excited there is so much interest in that Recreation.gov.
    Senator Smith. Yes. That is right. Technology has a way of 
attracting attention when it does not work. March 4th is my 
birthday, Secretary Perdue, so I would love to have it be live 
on my birthday.
    Secretary Perdue. We will do that----
    Senator Smith. That would be great.
    Secretary Perdue [continuing]. as a birthday present.
    Senator Smith. Thank you. Thank you very much for that.
    I also want to touch on something that Senator Stabenow was 
talking about which is dairy. You know, farm bankruptcies are 
on the rise in Minnesota and across the Upper Midwest, and it 
is interesting. The Minneapolis Fed just released some data 
that shows that between 1917 and 1918--2017 and 2018, farm 
bankruptcies are about double what they were in 1913-'14. I 
think that a lot of that--we think a lot of that is driven by 
dairy, though it is a little early to say.
    I was just talking with Minnesota Milk a little earlier 
today, who are just so eager to see how the improvements to the 
dairy program can get implemented as soon as possible, because, 
of course, a lot of those dairy folks are heading to the banks 
right now trying to figure out how to cobble together the 
funding after a couple of rough years. So you feel good about 
moving that forward, it sounds like, early on.
    Secretary Perdue. I think this Committee and Congress have 
done a wonderful job with a very supportive dairy program. It 
is like when you have been down so long--and I think Senator 
Stabenow mentioned about kind of the branding issue over the 
Margin Protection Program--we have got to kind of rebrand and 
sell it----
    Senator Smith. Exactly.
    Secretary Perdue [continuing]. because this is a great 
program.
    Senator Smith. Get people enrolled, and they need to----
    Secretary Perdue. If they can just hold on it is going to 
be really good for dairies, particularly the under five million 
pounds.
    Senator Smith. Yes. Well, I appreciate that and I am happy 
to hear about the online payment, the calculator being up soon, 
and we will look forward to spreading the word on that. That is 
great.
    One other thing I wanted to touch on, Secretary Perdue, is 
the question of health care in rural communities. You know, it 
is interesting. When I am out visiting with Minnesota farmers, 
of course, there is a lot of talk about prices and a lot of 
talk about the overall state of the ag economy. Often the 
second thing that people talk to me about is rural health care 
and mental health care, you know, that one thing together.
    In the farm bill, which we passed last year, I worked with 
Senator Jones and Senator Rounds on this Committee to get a 
rural health liaison position in to help coordinate much better 
rural health. So could you talk a little bit about that 
position and where you are in terms of getting that position 
filled and worked on?
    Secretary Perdue. Certainly. Obviously this has been one of 
the focuses of rural development. Health is one of the life 
qualities that we judge how well we are doing by in rural 
prosperity. Not only are farmers typically in the individual, I 
think, health premiums have also increased the stress. You did 
not used to see health premiums on their line sheet about cost 
of living, but now, at $25,000 to $30,000 they have to account 
for it, per couple.
    Senator Smith. Yep.
    Secretary Perdue. That hurts. Obviously we have got an 
opioid epidemic that Rural Development's Anne Hazlett has been 
extremely involved in nationally, and we hope to continue that. 
Rural health is part of rural prosperity, it is a form of well-
being, and we will look forward to continuing that.
    Senator Smith. Well, great. Well, I will look forward to 
staying in touch with you and the agency on this rural health 
liaison effort which I think could be a big help.
    Secretary Perdue. Sure.
    Senator Smith. It would be a big help.
    Just in the few seconds that I have left, Senator Boozman 
raised the question of rural broadband, which is, of course, so 
important. I know how much you appreciate this. You and I have 
talked about this before. One issue related to rural broadband, 
which is a core economic issue, of course, all over the country 
and in rural Minnesota, is the basic data about where we have 
coverage and where we do not have coverage. I hear from a lot 
of people in Minnesota that the maps--often they look at the 
maps that show ``Oh, I am covered'' but I do not have coverage.
    So can you tell me what the USDA is going to--can do to 
help make sure that people are not overlooked because of 
inaccuracies in these maps?
    Secretary Perdue. Yes. I do not want to be political but we 
believe that FCC coverage maps are fake news, and we are----
    Senator Smith. Because there are a lot of people in 
Minnesota that would agree with you.
    Secretary Perdue. Everywhere, really. They were primarily 
generated from carriers who do not want to see more 
competition, and what we are doing right now is polling 
individual States, and many States are engaged in this issue. 
We are developing partnerships with the State departments of 
rural broadband, many of them creating offices there of 
actually finding out. That is the first thing. If you are going 
to deploy these--and you all told us to deploy them in unserved 
areas--we have got to know where those are, and you have got to 
rely on data, which is not reliable currently under the FCC 
maps now.
    Senator Smith. All right, well, thank you. Mr. Chair, I 
know my time is up but I would love to work with you on the 
idea of some sort of a challenge process for consumers, so we 
can get good information quickly.
    Secretary Perdue. Okay.
    Senator Smith. Thank you.
    Chairman Roberts. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. Thanks for being 
here, Mr. Secretary. Already you really are demonstrating that, 
you know, you are an advocate for the farmer. The work on the 
farm bill, which I think is a good farm bill, and I, of course, 
commend our Chairman and Ranking Member, but your help and 
support to get that good farm bill. Your work during the 
shutdown to help our farmers and keep FSA offices going. Just a 
whole variety of these issues when we have asked you to help 
our producers during challenging times, which is what it is for 
them right now. You have been a tremendous advocate, and so I 
just want to say thank you for that.
    I know you have a lot of things that you have to balance 
and make work, but your advocacy for the farmers is always 
first, and that is really important, and it shows, and we thank 
you for that.
    As you know, we need some help on those section line 
issues, and I believe DOJ and some of your folks are meeting 
this week or next week--next week on it. So I want to thank you 
for that. That is important for us and your continued help 
there is appreciated.
    You know, as we talk to farmer groups, both when they come 
in to see here in D.C. and when we go back home, really there 
are not any commodities right now where they can price out and 
make a profit. You know, for the established producers, you 
know, they can get by, that are operating on pretty much all 
equity. For the ones that we really have to keep in the 
business of farming, the ones that have some leverage, that is 
a huge problem.
    The average age of our farmers right now is 60 years old, 
and I know you and I do not think that is particularly old, 
but, you know, when you think that is the average age in 
farming and we have all the capital constraints and everything 
else for young people to get into farming, and then stay in 
farming, you know, continue to farm and ranch, this is a real 
issue.
    So I guess just touch on--and I know we tried--we worked 
very hard in the farm bill to address that with improvements to 
ARC and PLC, crop insurance and everything else--but your 
thoughts as our farmers now are trying to, you know, get those 
credit lines. We, of course, increased the FSA guarantee and 
direct loan, but what are your thoughts right now as our 
farmers are talking to their banker and they are putting those 
operating lines in place and trying to--you know, last year 
they could actually hedge maybe 40 percent of that crop and 
lock in some revenue or some margin, but they cannot do that 
this year.
    Secretary Perdue. Well, you have correctly identified--I 
think they probably ought to be included in the ESA laws. They 
are the most endangered species out there right now regarding 
young farmers and beginning farmers that have not had a career 
of building up equity. Many of them are renting land, and from 
a cash-flow perspective it is tough. I think what you all have 
provided certainly in the FSA loan enhancements there will 
help, but you cannot borrow yourself into profitability either, 
and that is lenders, including us, and guarantee. You have to 
look at cash-flow of being able to repay those loans.
    It is challenging, Senator. I wish there were a magic wand 
we could wave. It is pretty tough. I guess we used to laugh, in 
the business, it is a pretty sorry farmer that cannot even make 
a profit on paper these days, you know, and that is kind of 
where we are these days.
    Senator Hoeven. Well, the market facilitation payment was 
very important. It is very important on crop insurance that you 
do not reduce any of the current support on crop insurance. 
That is critically important this year.
    Then the other is on the trade piece, and I visited with 
Larry Cudlow earlier this week. So the Market Facilitation 
Payment helped, and you were a champion there, and again, I 
thank you for that. Depending on how long the trade 
negotiations go on, we really need to have some help for our 
producers in the interim. So in those negotiations, to the 
extent you can continue--and I know you are doing it and I am 
doing it and others are trying to do it--convince the 
administration that we have to have purchase, as well, that 
goes on.
    You know, we have got product, commodities stacking up all 
over the place, and so it is not just from a pricing standpoint 
but just physically selling product. We have got to try to get 
some purchases while that negotiation is getting on. Obviously, 
the sooner we can get a resolution, the better. So just some 
thoughts in terms of trying to get some product moving for our 
producers while those trade negotiations are ongoing.
    Secretary Perdue. Well, certainly. Obviously, your part of 
the world was most hard hit because it flows to the PNW, and 
that market was essentially cutoff. In fact, even down in the 
Gulf was--the liquidity issues that Senator Boozman knows was, 
with no trade moving it is very difficult. The elevators get 
stopped up very quickly because it is used to flow, and if you 
do not have an outlet for it it is like the Dead Sea, and that 
is sort of what happened this year.
    Hopefully the Chinese, with their commitment, just last 
Friday, almost a week ago, with 10 million more metric tons of 
soybeans, hopefully we can see more of that. That implies that 
we have to have an agreement, and while we are cautiously 
optimistic, I think if we get an agreement in principle we can 
see purchases on various commodities move fairly quickly and 
recover markets. That still--I do not want to raise 
expectations that that is going to be done in the near term. 
Hopefully the President and President Xi of China can meet in 
March, and I would love to see a resolution there. Right now it 
is difficult to predict.
    Senator Hoeven. Right. I mean, obviously that is the--I 
think the No. 1 thing that would help right now is getting an 
agreement. It the meantime, anything you can do on, you know, 
keeping those purchases going.
    Then the other thing is on as far as getting approval of 
USMCA, addressing the steel and aluminum tariffs, because both 
Canada and Mexico, as you know, are holding product on the 
basis of that. That would be helpful.
    Secretary Perdue. Great point. Obviously a very important 
point that we have been advocating for, really, since the 
signing of the USMCA agreement. The expectation was once the 
agreement was signed the tariffs would come off. That has not 
happened but I think it is in the best interest of all three 
countries to do that. The President, we are working hard to 
persuade him that the steel industry here, of which he is 
concerned, can be protected through a TRQ program here rather 
than tariffs, and release the retaliatory tariffs against our 
farmers.
    Senator Hoeven. I know you are doing all these things and I 
really appreciate it. Thank you.
    Chairman Roberts. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    Chairman Roberts. I have been waiting 30 years to recognize 
you, sir.
    [Laughter.]
    Senator Durbin. Mr. Chairman, I am honored to be on the 
Senate Agricultural Committee and part of this cultural 
exchange with the Senate Appropriations Committee. I recall, 
when I was a member of the House Agricultural Committee and 
went on Appropriations that the Chairman, Jamie Whitten, asked 
me a little bit about my background, and I told him, and he 
said, ``Congressman Durbin, understand that authorizing 
committees deal in hallucinations and appropriations committees 
deal in fact.''
    Chairman Roberts. Senator if you would mind----
    [Laughter.]
    Chairman Roberts. I remember those days. Those 
hallucinations were very real and they have stuck with me more 
likely as nightmares, as I would point out.
    Senator Durbin. Thank you very much. It is----
    Chairman Roberts. I am amazed that you were able to 
understand anything that Jamie Whitten----
    Senator Durbin. That is right.
    Chairman Roberts [continuing]. said. I made the mistake of 
asking him a question on the floor of the House. Bill Emerson, 
who you remember very well, was sitting next to me, and Jamie 
explained, in his usual fashion, the response to my question. I 
sat down and Bill said, ``Are you satisfied with that?'' I 
said, ``I have no idea what the hell he said.''
    [Laughter.]
    Chairman Roberts. He was a great man and you replaced him 
and did outstanding work, and thank you for that.
    Senator Durbin. Thanks, Mr. Chairman.
    I have a statement I would like to place in the record but 
I would like to take----
    Chairman Roberts. Without objection.

    [The prepared statement of Senator Durbin can be found on 
page 48 in the appendix.]

    Senator Durbin. I would like to take this opportunity to 
ask the Secretary about the SNAP program. I heard your 
explanation about the administration's position on changing and 
reforming SNAP. So I would like to ask you about a specific 
situation. This relates to a convent in Evanston, Illinois, for 
Benedictine nuns. These nuns have worked their entire lives as 
nurses in hospitals and as teachers in schools. The only 
retirement they have is bare-bones Social Security, and they 
live in community, approximately 20 of them. What they do is to 
gather their food stamps, SNAP coupons, and make purchases for 
food to be cooked in their community kitchen. They are clearly 
needy, they are clearly eligible for SNAP payments, and there 
is no evidence whatsoever of any abuse.
    Despite that fact, there was an effort made in this last 
farm bill to take away their ability, their legal ability to 
pool their SNAP benefits to make purchases of food in bulk, to 
save some money so that they can continue to live under these 
modest circumstances. We were able to include in the farm bill 
an 18-month delay before there would be a disqualification of 
the waiver that allows them to make these community purchases.
    They are not alone. In our State we have 150 senior support 
living facilities and 8,000 seniors in the same boat. These are 
not people who are welfare cheats. They are not people who are 
ready to go to work if they are prodded a little bit. Their 
working years are behind them. I would dare say in every State 
represented here--Nebraska, Iowa, Arkansas, Kansas--they have 
similar facilities.
    Senator Duckworth and I are very concerned about this. Can 
you give us an assurance that at the end of 18 months you will 
not cutoff this community benefit for these elderly people?
    Secretary Perdue. What I can assure you, Senator, is I 
would like to learn more about that. Obviously, the anecdote 
you recalled regarding the nuns certainly sounds reasonable. 
They are eligible. What I have understood, and have been told 
regarding this, is that there are for-profit areas--home in the 
support living--of which they charge a fee for people to live 
there, and then they collect those who are eligible on SNAP 
benefits and then put that to their revenue in the home for the 
benefit of everyone.
    So I am certainly willing to look into considering those 
types of things, as the example you gave, to make sure that we 
can parse that out for those that we think are deserving in 
that way, rather than a for-profit enterprise taking SNAP 
benefits from the taxpayer and applying it to their overall 
revenue.
    Senator Durbin. In the year 2016, the Department of 
Agriculture did a survey of all of these facilities, so they 
certainly are not hiding anything. If there are people who 
abuse it, put an end to it. When it comes to seniors in support 
living facilities, many of whom are facing illness, disability, 
mental illness, and the like, I hope that we will not be 
treating them as if they are somehow cheating their government.
    Secretary Perdue. Certainly, as we learn more about that, 
as I indicated, my information was that these were the 
providers of which--I think the State law in Illinois requires 
that food be provided in that fee that they are being charged 
to live there. So unless they are giving them credit for the 
SNAP benefits, we think, again, the issue is on the purveyors 
of that service, if the fee, by Illinois law has to do with 
food being included in that fee, then I am happy to talk with 
you further about that and make sure that those who are worthy 
achieve that.
    Senator Durbin. Let us do that. Illinois is proud to be the 
largest agricultural producer of soybeans in the United States. 
Since President Trump took office the price of a bushel of 
soybeans has gone down $1. We believe that the trade policy of 
the administration could threaten the progress we have made in 
establishing customers around the world. I hear that from my 
soybean growers all the time. What would you tell them?
    Secretary Perdue. Tell them that they are in the long-term 
game. They obviously understand the volatility of prices. Many 
people like to attribute a cause and effect over trade. 
Certainly the Market Facilitation Program supported what we 
were able to determine and calculate to be the trade disruption 
damage for those soybean producers. We hope that the purchases 
that China just announced can be more and hopefully we can have 
a resolution of the trade where we think their prices will be 
better.
    Senator Durbin. My last question--and I see my time is up 
here and I want to be careful since I am a newcomer here. We 
talked about immigration. Workers, migrant workers and 
undocumented workers are critical to the survival of American 
agriculture. If we are declaring war on immigrants, war on 
undocumented immigrants, we have got some questions that need 
to be answered when it comes to dairy operations and fruits and 
vegetables.
    We produced a bill 6 years ago that was approved by both 
the Farm Bureau and the farm workers' union, the United Farm 
Workers, to deal with this issue. Are you willing to suggest to 
our President that we need an immigration reform bill to deal 
with this issue?
    Secretary Perdue. Absolutely, and the President understands 
we need a legal agricultural work force. It is probably the No. 
2 issue I hear behind trade everywhere I go and I look forward 
to working with both sides and the administration to achieve a 
comprehensive immigration bill that satisfies the need for 
agricultural workers. We know that the majority of our 
agricultural workers are foreign-born now, and some legal, some 
illegal, from an immigration perspective, and we need to help.
    Senator Durbin. Thank you.
    Chairman Roberts. Thank you, Senator.
    Senator Ernst, Senator Fisher, prior to the opening of this 
session I was asked by the distinguished pro tempore of the 
Senate that when he arrived I would recognize him. He is in 
earnest conversation with Senator Durbin now so he is not aware 
of my remarks, but I am now going to recognize the President 
Pro Tempore, knowing that his schedule is tremendously 
important and that he is probably gassing up the three cars 
that he uses to now to get over to the Capitol.
    Senator Grassley. You have a way of quietly irritating 
people.
    [Laughter.]
    Chairman Roberts. I just want to let you know I practice 
that each and every day.
    Senator Stabenow. I think we put that on his tombstone, the 
ability to quietly irritate people.
    Senator Grassley. First of all, thank you--whoever I am 
offending by going ahead of other people, thank you for letting 
me offend you. This is a very important hearing. With the new 
farm bill and one that is going to be around for 5 years, we 
have got to make sure that it gets started right away. Thank 
you, Secretary Perdue, for coming.
    I want to bring up an issue I often talk about that I once 
again, after three farm bills, failed to get in the farm bill 
conference report, even though every year I get it through the 
U.S. Senate, and 1 year I was able to get it through the House 
of Representatives, and it was taken out in conference, even 
though it was the same in both houses, as an example. This is 
the payment limitation issue that I am talking about, because 
the 2018 farm bill we passed last year created these goofy new 
loopholes for large farmers to extort taxpayers for more 
subsidies.
    Everyone who really farms has no problem with his or her 
eligibility for farm subsidies, so no farmer would--if you are 
actually farming, you are not going to have any problems. I 
have never tried to eliminate legitimate farmers from being 
eligible for the farm safety net. However, I have tried to 
crack down on abuses in the system that allows large farmers to 
extort taxpayers for every additional actively engaged person 
they qualify. Just so everyone here is clear on how much money 
one non-farmer, who still qualifies, can receive each year from 
the taxpayers--an individual, $125,000; married couple, 
$250,000.
    Now this is what is worse in this farm bill. The new farm 
bill, even enlarged that existing loophole to expand the 
definition of family to include first cousins, nieces, nephews. 
Imagine the outcry, probably by some of the members who support 
loopholes for farmers, if a food stamp recipient could claim an 
extra $1,000 a year for extended family members who do not, 
themselves, need food stamps. Plain and simple, this new 
loophole will allow large farmers to milk taxpayers for even 
more by claiming their niece or nephew, who may live on the 
opposite side of the country and have nothing to do with the 
farm, is a farmer who deserves $125,000 a year of free money. 
That is a slap in the face to the real farmers who sweat and 
manage their farms honestly, and to taxpayers who are on the 
hook for these payments.
    A young person fresh out of college or military has no 
chance of competing on cash rent for land with a larger farmer 
who has 5,000 to 10,000 acres of land in operation and access 
to unlimited subsidies. Just in case the Chairman is not paying 
any attention, please pay attention to this.
    Earlier this week this Chairman of this Committee called me 
a liberal at the Finance Committee hearing, and this is a 
hearing I held on prescription drugs. Well, I have to say to 
you, Mr. Chairman, I wish you would not be so very liberal with 
farm subsidies to non-farmers. It is all right with me if 
Kansas State beats Kansas, because they have never been there 
before, you know.
    Now can I ask a question? Can I ask a question?
    Chairman Roberts. We just had an athletic contest in 
Lawrence. My visa into that county has expired so I could not 
see the game. We were not successful against the Jayhawks. We 
were at home, but we still lead the conference. As to this----
    Senator Grassley. And you----
    Chairman Roberts [continuing]. any member of the Senate, I 
would deign to say anything----
    Senator Grassley [continuing]. and you beat Iowa State.
    Chairman Roberts [continuing]. to try and arouse the 
interest and ire of the distinguished gentleman from Kansas--
pardon me--Iowa.
    Senator Grassley. Can I ask----
    Chairman Roberts. I would just say that--I am not going to 
go there. Duly noted.
    Senator Grassley. Can I ask a question?
    Chairman Roberts. Certainly.
    Senator Grassley. Okay. Mr. Secretary----
    Chairman Roberts. You have 55 seconds. Go ahead.
    Senator Grassley [continuing]. a common concern I hear at 
my town hall meetings from farmers is the disparity of payments 
in ARC program from adjacent counties. The farm bill instructs 
USDA to start using RMA data instead of NASS data for 
determining county yields, the belief being that RMA data is 
more accurate than survey based on NASS data. Will that change 
be in effect for the upcoming crop year and its potential ARC 
payments?
    Secretary Perdue. By the way, Senator, I appreciate your 
comments were directed to the Chairman and not at me initially 
on that.
    Senator Grassley. Well, you and I had that conversation in 
my office before you were confirmed and you told me you agreed 
with me.
    Secretary Perdue. Let me go to your question here. I think 
that, yes, the RMA data should be used in this calculation 
here, going forward.
    Senator Grassley. Would you repeat that please?
    Secretary Perdue. Yes. I think that the RMA data will be 
used as you asked.
    Senator Grassley. For this year's----
    Secretary Perdue. Yes, for crops--for the 2019 crop season.
    Senator Grassley. Yes. Then I want your view on China's 
slow-walking biotechnology approvals having caused many 
problems for our farmers and biotech companies. Can you tell us 
if the U.S. is prioritizing improving China's approval times 
for biotech products in the ongoing negotiations between our 
two countries?
    Secretary Perdue. Not just prioritizing but pounding it in 
every conversation. This one of the non-tariff barrier issues 
we have been laser-focused on regarding that. China, as you 
know, has used this slow-walking of biotech traits as a 
protectionist measure and it is one of the issues that we are 
working on, from a resolution.
    Senator Grassley. Thank you, Mr. Chairman. You were more 
cooperative than I thought you would be. Thank you.
    Chairman Roberts. Well, thank you, Senator, and given your 
immense and important duties you are now free to leave any time 
that you would like to absence yourself from the Committee.
    Let us hear from Senator Casey, please.
    Senator Casey. Thank you, Mr. Chairman. This has been an 
interesting hearing so far.
    [Laughter.]
    Senator Casey. I speak from this side, the Sea of 
Tranquility.
    [Laughter.]
    Senator Casey. Mr. Chairman----
    Chairman Roberts. Senator, are you considering running for 
President?
    Senator Casey. No.
    [Laughter.]
    Senator Casey. Like I said, it is a Sea of Tranquility.
    Mr. Secretary, thank you for being here. I want to thank 
you for doing the job that you do. It is a tough job under any 
circumstances but maybe particularly so in these times.
    I wanted to try to cover three issues. One I will just do 
by way of a statement. The three would be conservation, dairy, 
and organic agriculture. I wanted to reiterate something that 
the Ranking Member, Senator Stabenow, referred to earlier in 
the conservation discussion.
    As you might know, in our State of Pennsylvania we are in 
the process of developing the Phase 3 Watershed Implementation 
Plan that will outlines how our State intends to meet the 
requirements of the Chesapeake Bay cleanup. The cost for 
agriculture will be significant, as you know. The strong 
conservation title in the farm bill should lessen the burden 
for farmers.
    I do want to echo what the Ranking Member said, her call 
for a coordinated, targeted, national initiative aimed at 
addressing water quality concerns throughout the numerous 
conservation programs administered by USDA. So I appreciate 
your continued attention to that.
    Let me start, though, with my question on organic. The 
national--included in the enforcement provisions that will 
expand USDA's organic program authority and also the capacity 
to provide oversight for both domestic and imported organic 
products. The question I had was, the farm bill requires your 
department to issue a final rule to strengthen organic 
enforcement by December of this year. Can you provide an update 
on how the Department plans to met the deadline and provide a 
timeframe with regard to your plans to publish the proposed 
rule?
    Secretary Perdue. Well, we are striving to meet the 
deadlines. As you know, there were some statutory deadlines in 
the bill that assumed passage by September. So we signed in on 
December 20th. We had the shutdown that have delayed some. We 
are working to implement those as hard as possible, as 
certainly the enforcement of some of the issues we have heard 
over imported organic violating some of the standards and the 
competition with our growers here who are abiding by those 
rules is a very serious issue and we will continue to work to 
meet those deadlines. I cannot tell you right now if we will be 
successful.
    Senator Casey. Well, I appreciate that. I appreciate your 
attention to that.
    My second question also pertaining to organic, again, is 
the farm bill's legislative principles states that it was your 
department's priority to, quote, ``Protect the integrity of the 
USDA organic certified seal and to deliver efficient, effective 
oversight of organic production practices to ensure that 
organic products meet consistent standards for all producers,'' 
unquote. That is the statement. We know that inconsistent 
enforcement in the organic dairy standards is further 
exacerbating the economic challenges these, in this case, dairy 
farmers are facing.
    The question I have is, can you provide clarity with regard 
to whether the department will be taking regulatory action on 
this issue, and if not, why not?
    Secretary Perdue. I expect that we will. Certainly, 
enforcement means consequences, and it does not do much good to 
enforce if you do not have consequences to do that. Certainly I 
expect that we would.
    Senator Casey. Well I hope that is the case and maybe we 
can followup and talk more about that.
    The last question I have is on dairy itself. We know that 
prior to the farm bill the Bipartisan Budget Act added 
significant improvements to the dairy safety net. We are told 
that some 20,000 farms, about half of those eligible, have 
signed up for the program. The farm bill made additional 
changes, and I guess the basic question I have for you, because 
this is so important to risk management, is what steps will the 
Department take to inform the eligible farmer of the 
improvements made to the dairy program and thereby increase 
enrollment significantly?
    Secretary Perdue. As we prepare to get the rules in place 
then I think, again, we communicate certainly by any medium we 
have, including postcards to our producers, if we have email 
addresses we do that. We actually have joint meetings and 
calling within the regions of dairy producers and they are 
usually well attended. Frankly, we rely on the members and the 
producers themselves to spread the word. As I said, the great 
social media, the coffee shop, is still alive and well.
    Senator Casey. Thank you, Mr. Secretary.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thank you, Mr. 
Secretary, for being here today.
    Secretary Perdue. Another Iowan.
    Senator Ernst. That is right. I was greatly offended that 
the senior Senator from Iowa was allowed to go first, even 
though I outrank him on the Ag Committee. I will speak to you 
later, Mr. Chair.
    Chairman Roberts. I would recommend you take that up with 
Senator Grassley.
    Senator Ernst. Well, and certainly, Secretary Perdue, thank 
you so much for being here. I want to start out by touching on 
the importance of the EPA's work, of course, to get the 
President's promise fulfilled on completing the rule to allow 
for the sales of E15 year-round. After speaking with you and 
Acting Administrator Wheeler yesterday I do feel confident that 
the EPA is on target. They are doing everything in their power 
to write and finalize the rule as fast as possible. So thank 
you for having that conversation with me.
    Secretary Perdue. Well, thank you for your encouragement 
for Administrator Wheeler.
    Senator Ernst. Yes. Thank you. We will keep pushing. 
Believe me, we will keep pushing.
    I want to talk a little bit about some of the epidemics 
that we are seeing worldwide, and near and dear to Iowans' 
hearts, of course, is hog production, No. 1 in the United 
States. North Carolina, very distant--distant second. Our Iowa 
hog producers are really staring down the threat of African 
swine fever. This has been sweeping through Eastern Europe. It 
is affecting herds in China. If it were to come to Iowa or 
anywhere in the United States this could be absolutely 
devastating to the hog industry.
    So what additional steps or precautions is the USDA--what 
are they taking to ensure that this horrible disease does not 
hit the United States and hurt our industries?
    Secretary Perdue. Obviously, Under Secretary Ibach can tell 
you more specifically but I can tell you that it has been on 
our radar since it first showed up in China. We track it on a 
daily basis. We communicate with our industry over biosecurity 
measures. We are communicating with our partners to the north 
and south on the North American continent about trying to have 
protocols that make sense that way, since those are the most 
porous borders that we have, and then, certainly, from Customs 
and Border Patrol over incoming travel from the affected areas. 
We are in daily contact with them regarding the threats that I 
have to do. You may have read the little anecdote story about 
our little USDA beagle that detected the hog head coming from 
elsewhere.
    Those are the things. Obviously, transmissible diseases 
have the potential to be extremely threatening, and I do not 
know that there is anything else we can do in that way but we 
are always looking and seeking, because in emergency 
preparedness or in trying to prevent these kind of things, we 
are not leaving a stone unturned, but if someone sees that from 
the industry, we want to know about it.
    Senator Ernst. Mm-hmm. I appreciate that, Mr. Secretary.
    Then in the farm bill there were a number of provisions 
included, focusing on conservation that I focused on, and 
including those in CRP that benefit our beginning farmers while 
also protecting land and ag production with practices that 
benefit our water quality. That is very important in Iowa. That 
is done especially through the new Clean Lakes, Estuaries, and 
Rivers Initiative. I also want to stress the importance of 
working lands conservation programs, like EQIP and CSP--those 
have been really important to us as well--and protecting 
natural resources through voluntary conservation.
    So the farm bill did make changes to support those goals, 
and what I would like to know from you, can you speak to how 
USDA is moving forward to implement the changes that were in 
this recent farm bill and your commitment to ensuring farmers 
have access to the support they need, especially for those that 
are just getting started.
    Secretary Perdue. Surely. As we said, it was fortunate the 
NRCS continued to work through the shutdown, because they are 
working on mandatory money, and implementing these new 
provisions and educating both first and training our both 
employees and staff around the country on the new provisions. 
We think they are going to be very beneficial and helpful, and 
we will do all that we can to educate our producers and farmers 
about the new provisions, how they can help them on their 
working lands of agriculture but also working lands for 
wildlife and conservation.
    Senator Ernst. Thank you. Thanks to those employees too, 
that man those offices. That was really helpful in Iowa. So 
thank you, Mr. Secretary.
    Chairman Roberts. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. Mr. Secretary, nice 
to see you. Thank you. I do not think I have ever talked to you 
without talking about Lake Erie and algae blooms and the 
conservation title. During the farm bill I worked with Senator 
Ernst and Senator Grassley and Senator Casey--to write the 
CLEAR Act. That was included in the farm bill, standing for the 
Clean Lakes, Estuaries and Rivers Program. The farm bill made 
certain that CLEAR enrollment should receive priority among the 
categories of CRP. As you will remember, 40 percent of the 
acres enrolled through continuous CRP will go to CLEAR.
    My first question is will you commit to fully enrolling the 
acres that Congress set for CLEAR in the farm bill?
    Secretary Perdue. Yes, sir.
    Senator Brown. Okay. Thank you.
    The Western Lake Erie Basin, Lake Erie near Toledo, is only 
30 feet deep. Lake Superior is 600 feet deep. Lake Erie, in the 
Western Basin, is the most vulnerable part of the Great Lakes. 
It also has the largest drainage area, 4 million acres, called 
the Maumee River Basin. So it will always be at risk. It will 
always be vulnerable, for a whole lot of reasons--humans, 
industrial, commercial, agricultural, all that. So it is 
particularly important that we support all of these programs, 
and we will continue to talk about that.
    I want to followup on Ranking Member Stabenow's back-and-
forth with you on food stamps. As she says to me privately and 
as she has said publicly, we debated and rejected some of the 
things that you are planning to do, it sounds like. The same 
day the President signed the most bipartisan farm bill in 
history you announced your intent to make changes to SNAP. We 
went back and forth on these issues during the farm bill. You 
know, Democrats gave, Republicans gave. Senator Roberts and 
Senator Stabenow showed about as good a bipartisan leadership 
that I have ever seen here to get 87 votes and to insist on 
that bipartisanship. The same day that bill was signed, you all 
announced, that USDA would propose a rule that would result in 
potentially hundreds of thousands of SNAP recipients losing 
access.
    I understand you want to put people to work. So do I. I 
want to move people from food stamps to work. I know that is 
good politics in Washington and good politics at home, and I 
want to do that because that is the right thing. I also know 
that so often these are individuals in our States, in Colorado, 
in Nebraska and South Dakota and Kansas and Michigan and Ohio, 
who fall through the cracks. They are sometimes people 
undiagnosed with mental illness. They are disabled people that 
have not gotten on the disability rolls, if you were.
    So my question is, are there enough--what exactly you are 
going to do to make sure these people who were receiving SNAP 
benefits, and we just--I am not sure you have the available 
data, county and State data, to make this decision. What are 
you doing to get that data and how can you ensure, to us, that 
people who are disabled, people who are mentally ill but not 
yet diagnosed can eat and can have at least some sort of life 
that we all think is part of human dignity?
    Secretary Perdue. With all due respect, Senator, one of the 
conversations that occurred during the farm bill, when the 
House came out with their version of much further than we have 
gone with our rule, was that, well, we do not need to do that, 
that Sonny can take care of that through a rule in the program. 
Based on the law that you passed, just in this past year, that 
is exactly what it gives the Secretary the discretion to do and 
that is the discretion I am exercising in that regard.
    Senator Brown. Well, one moment. I apologize, Mr. 
Secretary. With all due respect--back at you, all due respect--
because some House members said that does not mean that that is 
what the Senate was voting on. The Senate was 87 votes with 
language that we wrote without that intent that Senator Roberts 
and Senator Stabenow and the rest of us came to agreement on.
    Secretary Perdue. Senator, those were not House members, 
but I do not think it is appropriate to identify those members 
right now.
    Senator Brown. They were wayward Senate members. They were 
among the 13.
    Secretary Perdue. Well, they are sitting close to me.
    Senator Brown. Even our Lord, in choosing 12, chose one who 
erred. If I can explain that to all of you, okay, go ahead.
    Secretary Perdue. I think to answer your question, though, 
for those who are undiagnosed--and that is the challenge we 
have in mental health in this country. We want those people to 
be diagnosed, and then obviously ABAWD stands for able-bodied 
working adults without dependents. That is what this is. There 
are provisions in local regions of high unemployment where 
these waivers are appropriate and they will be utilized.
    You all also gave a 12 percent exemption Statewide that 
States can use in populations they feel like are being directly 
affected.
    Senator Brown. Well, I thank you for that. I am not 
convinced, from talking to people at food banks and talking to 
people in communities and local governments that they have the 
wherewithal to do the job training programs that you need, that 
we need, and would like to do for those we can do it for, to 
move them into work. I just ask that you be sensitive to 
understanding that in many communities they just, for whatever 
reason, they do not have the dollars to pull off to accomplish 
those programs to do that.
    Secretary Perdue. We will be sensitive to that. I also 
believe that the Senate rejected the education and training 
that might have been proposed from the other side as well.
    Chairman Roberts. Well, Coop, you are back. It is almost 
high noon. I think that, you know, Grace is going to show up 
with her wagon and ask you to go with her, and you are just 
going to tell her a man has got to do what he has got to do.
    Senator Thune. Does anybody under 70 in this room know what 
he is talking about?
    [Laughter.]
    Chairman Roberts. We just went through that with Hadacol.
    Senator Thune. Thank you, Mr. Chairman, and thank you to 
you and the Ranking Member and your staff for such a great job 
getting this farm bill across the finish line. It is hard to 
believe it is almost 2 years ago now that we started hearings 
on this. It seems like yesterday. It is a great accomplishment. 
Secretary Perdue, thank you to you and your staff for your 
expert technical assistance and guidance that USDA provided to 
me, to my staff, and to the members of this Committee as we 
were writing that bill.
    Mr. Secretary, I would say that the producers in South 
Dakota are primarily concerned about two things. One is 
implementation of ARC and PLC and the other is CRP sign-up. 
Most producers were enrolled in ARC under the 2014 farm bill. 
That is likely to change. Most are probably going to be likely 
to be in PLC for most crops. You testified yesterday that you 
expect to have the regulations, procedures, and software ready 
for farmers to enroll in ARC and PLC by September the 1st.
    Really important for producers is this question, and that 
is do you expect to have worksheets and calculation models in 
place before September 1st, so they, and their lenders, can 
have some certainty going into the 2019 crop year?
    Secretary Perdue. I would hope so, Senator. I am looking 
for my notes here about the timeline on that. If we are 
expecting that sign-up period, I am hoping that we can get them 
information upon which to make a decision. Obviously, that is 
iterative and it is, you know, like building the airplane while 
you are flying it, to get that out there. So I know, in the 
previous 1914 farm bill there was a lot of discussion over ARC 
and PLC and how to make choices. I think you are absolutely 
right that we will see probably more PLC this time, based on 
where prices are. I think the flexibility you all gave them on 
the annual choices will also be helpful.
    Senator Thune. Good. I would just say, particularly as they 
are trying to get their lenders to work with them, if, you 
know, the worksheets and the calculation models that are used, 
they take them to the banks, the borrowers, to get those 
operating loans, it is really critical. So I would just 
encourage you and really emphasize the importance of getting 
that part of the--you know, the regulation procedure process 
out there as early as possible.
    Yesterday, during the House Ag Committee hearing, Chairman 
Peterson asked you questions about the CRP sign-up and you 
mentioned later this summer and December 1 as possible dates 
for CRP sign-ups. My concern is that as of last October--and 
CRP enrollment was at about 22.5 million acres, about 1.5 
million below the acreage cap, with another 1.6 million 
additional acres expiring September 30 of this year.
    Because acres accepted into CRP usually are not actually 
enrolled until the following October 1, I am very concerned 
that unless general CRP and continuous CRP sign-ups are held no 
later than summer of this year, we are going to lose potential 
to have more than 2 million acres that if not enrolled in CRP 
and taken out of production cropped in 2020, and adding to the 
surplus burdensome--or I should say the existing burdensome 
grain surplus.
    So the question is, could you expedite CRP sign-ups to 
ensure that acres are enrolled and dedicated to CRPs so that 
they are not cropped in 2020? In other words, if CRP sign-ups 
cannot be held prior to December 1, what can USDA do to ensure 
that acres enrolled in CRP after December 1 can actually be 
placed under contract and the vegetative cover established in 
2020?
    Secretary Perdue. Senator, we are going to do the very best 
we can in that. There are several changes in CRP. I am a 
sooner-rather-than-later guy and I pushed our people as hard as 
I can. I would rather give what we expect not from a sandbag 
kind of perspective but what we think is realistic. That is 
what I have tried to do with all of these dates. I understand 
your concern.
    The answer to the second part of your question is yes, I 
think we can do that, after the December 1st sign-up. These are 
pretty complex kind of changes and issues there, and we are 
going to expedite as much as possible.
    Senator Thune. Thank you, and this is personally relevant 
to you because we want to make sure you have plenty of CRP 
acres to hunt pheasants on in South Dakota. So that is another 
reason to get it done.
    Secretary Perdue. That is why we are going to expedite it.
    Senator Thune. Could you share with us your plans for 
ensuring that there are adequate staffing levels in USDA 
headquarters, IT operations in State and county offices, to 
ensure timely delivery of farm bill and all other programs this 
year?
    Secretary Perdue. Several months ago we authorized staffing 
and hiring plans throughout USDA. You probably know the Federal 
Government is not the best, easiest place to onboard people 
regarding all the checks that we have to do. I asked the other 
day how we were coming and I did not get a favorable answer. It 
was a C-grade, and I reminded them that that was not acceptable 
in our household and it really was not going to be acceptable 
in USDA. So we will continue to make a specific effort to get 
the appropriate staffing, and if you or any of your members 
here, or throughout Congress, hear of specific gaps in your 
offices around there I hope you will let me know specifically 
where we can address those.
    Senator Thune. All right. Thank you. My time has expired. 
Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    Senator Bennet.
    Senator Bennet. Thank you. Thank you, Mr. Chairman, and 
thanks for holding this hearing and for your leadership, and 
the Ranking Member's as well, and this excellent farm bill.
    Mr. Secretary, thank you also for--I have said this to you 
before but I want to say it again--for ending fire borrowing at 
the Forest Service. Many secretaries have tried to do it before 
and you did it, and it was excellent, and I want to thank you 
for that.
    Secretary Perdue. You all did it, but thank you.
    Senator Bennet. Well, we have got more to do, but I am 
grateful for it and I look forward to working with you on 
implementation of the hemp provisions in the farm bill as well 
as the drought provisions that are in that bill.
    I wanted to ask you a couple of questions about trade, if I 
could, today. Mr. Secretary, last week the USDA projected 
agricultural imports will increase while exports will decline 
in 2019. The USDA's chief economist noted that China reduced 
American soybean imports by 90 percent. Now Brazil is rushing 
to fill that void, as you know, and I have heard from Colorado 
wheat growers who stand to lose precious market share in Japan.
    I am worried that once lost these markets will be hard to 
recover. I wonder whether you could summarize the USDA data 
that quantifies the cost of lost market opportunities overseas 
for American farmers and whether you have communicated that 
data to the President. I would like to know what your 
conversations have been about that.
    Secretary Perdue. Certainly. I want to thank you again for 
your mentioning of the forest issues and I want to remind 
certainly members here, as I did yesterday, that one of the 
things not only in the disaster that fell out of the recent 
appropriations bill but also the backfill from our fire 
suppression efforts of where we borrowed $720 million from 
operating there. That did not get filled back either. That has 
been typically done. You know the fire borrowing does not kick 
in until Fiscal Year 2020, so we really need that, as well, to 
do what we need to do, in your State and others.
    Regarding trade, obviously we are continuing to describe to 
the administration the impact of trade. I think--I do not know 
when those economist numbers came out, but I think it has 
improved since that time, based on the 20 million metric tons 
of soybeans that had been committed since these latest 
discussions happened with China. Nonetheless, they have been 
impactful, and not only there but certainly the trade 
disruptions last year from Canada, Mexico, and other places.
    So we hope to get those restored. We are all cautiously 
optimistic we can get a resolution. I believe, honestly, the 
President, if we can get the structural reforms on intellectual 
property that kind of began this issue, I believe the President 
wants to. The concern about getting the markets back, based on 
some of the numbers that China has proposed, I think they can 
come back quickly and more abundantly than we have seen before.
    Senator Bennet. I know, Mr. Secretary, you know this as 
well as anybody around this table, that our producers are well 
aware of what the cost to them has been. In other words, they 
are not going to accept as a success some modest purchase by 
China of soybeans that they already would have sold to China 
had we not been in the middle of this trade war. You know, you 
mentioned 20 million metric tons. I had heard 10 million metric 
tons.
    Secretary Perdue. Well, it was 10 recently, plus the 5, 
plus the 5, so it is 20 most recently. That only gets us back 
to two-thirds of the 75.
    Senator Bennet. Yes, that is right. I mean, it is 32 metric 
tons or something that they would have bought anyway. So to 
have people suggest that somehow that is a win for our farmers 
or our ranchers--I am not saying you are. I am not saying at 
all that you are--it just--between that and the payments that 
have not covered the damage that has been done, you layer on 
commodity prices, drought, and trade, there is just so much 
uncertainty and it is why bankruptcies are up all over farm 
country as a result of all this.
    So I just hope you are communicating this with the 
President. This has not been a costless exercise that he has 
been engaged in, and in the end maybe he will succeed. In the 
meantime there are a lot of farmers that are going out of 
business as a result.
    Secretary Perdue. If we see anywhere near the numbers that 
we are looking at with the potential success, I think the 
farmers will be rewarded handsomely.
    Senator Bennet. The trade representative said to me once 
that our farmers and ranchers have his sympathy because he 
knows they are the first ones that are going to be attacked in 
the trade war. I said, ``Well, I do not think we need your 
sympathy. I think what we need is for you to act rationally and 
reasonably.'' I think you are a rational and reasonable person 
so I hope that you have got a seat at the table here.
    Secretary Perdue. Oh, I have had that conversation with 
Ambassador Lighthizer as well and, honestly, I do believe 
initially he might have thought that farmers were complainers. 
I will tell you, at the end of the USMCA and in East China 
negotiations, he has been a legitimate advocate for American 
agriculture, at EU, Japan, and China, and the USMCA. So I have 
been proud of the conversion there that I witnessed and I think 
we are on the right track.
    Senator Bennet. Well, keep working on it. Our farmers are 
not complainers ever.
    Chairman Roberts. Thank you, Senator. You made your mind 
up?
    Senator Bennet. I will keep you posted.
    Chairman Roberts. All right. Thank you.
    Senator Bennet. I do not know where these other people 
left.
    [Laughter.]
    Chairman Roberts. I think when you came in they left. I am 
not quite sure what happened.
    Senator Bennet. That very well could be.
    Chairman Roberts. But it is the Fab Four, and we welcome 
you any time. Thank you.
    Senator Fischer.
    Senator Fischer. No comments? Thank you, Mr. Chairman.
    [Laughter.]
    Senator Fischer. That is a good thing. Thank you, Mr. 
Chairman. Mr. Secretary, nice to see you. It was great to have 
you out at Sunny Slope Ranch, our family ranch, where a couple 
of years ago I woke up to snow on a late May morning and had a 
great discussion in our barn with 70 neighbors. The first thing 
I asked the Secretary to do was pull out his cell phone and see 
how his reception was. There was not any. So I appreciate your 
comments on the broadband and the importance of rural 
broadband.
    I wanted to followup on some of my colleagues' comments on 
that, specifically looking at precision agriculture and the 
importance of precision agriculture and the technology, all the 
cool things that our producers will be able to do, how that 
affects many States including mine, where ag is the economic 
engine, and how that affects the economy of this country. It is 
extremely important.
    We had a report that was required with regards to that. Is 
your agency on track to get that published?
    Secretary Perdue. I think it is. In fact, I am not sure--I 
am surprised it has not already out there, but I have seen it 
probably in a couple of weeks and it should be there. I 
appreciate your interest in that. Obviously, those of us who 
thought we lived in rural America have not been to the 
Sandhills, where your nearest neighbor sometimes are----
    Senator Fischer. A long ways away.
    Secretary Perdue [continuing]. 50 or 60 miles away. So, 
nonetheless, it is important. You mentioned certainly one of 
the key components. Precision agriculture sounds neat, but what 
it does is less inputs and more productivity, more outputs, and 
that is really what it matters. It lowers the footprint. It is 
better for all of our environment and other things. So that is 
why it is so important, along with the e-commerce and health 
and education, all those kind of things. That is why we need 
that moonshot in the Sandhills as well as all across the 
country.
    Senator Fischer. Definitely. You know, when we look at 
trade policies, a lot of discussion on that as well today. Part 
of what we had in the farm bill was a consolidation of trade 
programs that are out there, and hopefully to have a more 
efficient trade program going forward with some flexibility. 
Where are we on that, on the development of looking at a more 
efficient trade program so that we can really target some 
areas?
    Secretary Perdue. Maybe I am not quite sure what you mean 
by more efficient trade programs. We are obviously putting 
money in our market access programs to develop more markets, 
efficiency in trade programs, working with collaborators and 
exporters all across the sectors of specialty crops and our 
primary crops, and working on China on their traceability and 
age of that Nebraska beef, and MRLs regarding residue limits 
and those kind of things we continue to work on. I am not 
exactly certain of what you are talking about with efficiency 
of trade.
    Senator Fischer. Well, I viewed it as, I guess, a better 
use of taxpayer money when we consolidated some of those trade 
programs in the farm bill, so that we can, I think, target 
areas so that we do not have the duplication.
    Secretary Perdue. Well, I think in the Market Facilitation 
Program, or, really, the Market Access Program, and the $200 
million of that Market Facilitation Program we are doing, 
working with 57 collaborators, these are the industry sectors 
that know where they can go to find other markets. I think that 
is increasing the efficiency of it.
    We are holding our partners accountable, not just for 
outputs but outcomes. I had a pretty stern discussion with one 
of our regional organizations from our part of the world. It 
did not look like they were meeting the criteria for 
productivity.
    Senator Fischer. Good. Then I wanted to ask you about the 
vaccine bank. As you know, from your training and profession, 
what an outbreak of foot-and-mouth disease would do to States 
around this country, but the country as a whole. What measures 
are being taken by the agency to stand up the program of that 
vaccine bank, and are you in any kind of coordination with 
individual States on being able to involve industry 
stakeholders?
    Secretary Perdue. Both the industry and our State ag 
partners, those are the networks when we talk about the three 
legs of the labs and then the network, the early detectors and 
biosecurity measures. This is the way it works. It works from 
the industry to our State regulators to USDA, in that way. Your 
own former Secretary of Agriculture, Greg Ibach, is very 
familiar with these issues and has done a marvelous job in 
working with, ahead of time, as we saw these things coming. I 
think the industry did a good job in identifying the threats 
and you all responded with resources in order to get that done.
    Senator Fischer. Would you say that is a top priority that 
we need to get that funded?
    Secretary Perdue. I think, again, the funding is sufficient 
currently until we identify probably what the level of the 
vaccine bank should be, and that may require more funds.
    Senator Fischer. Thank you, Mr. Secretary.
    Chairman Roberts. Thank you, Senator Fischer. Senator 
Gillibrand. You are up.
    Senator Gillibrand. Thank you, Mr. Chairman. I would like 
to ask a little bit about the women and infants nutrition 
program, WIC. It has been widely reported that the President's 
budget will contain a 5 percent cut to discretionary programs, 
and you have said that the cuts to USDA programs will likely be 
even higher.
    The administration has made a lot of noise about how much 
they care about the health and well-being of babies, so I want 
to know if this includes the WIC program. Do you except 
proposed budget cuts to affect the amount of money available to 
provide healthy food for our low-income pregnant women and new 
mothers caring for their babies and young children?
    Secretary Perdue. The WIC program, as you know, Senator, is 
a utilization program. There will be ample funding for all of 
those. The economy has increased and helped and we see a lower 
utilization of the WIC program. Many have alleged that is 
because of some of the immigration discussions. We have not 
been able to validate those anecdotes about that. Every 
pregnant woman and child will be able to use the WIC program as 
you desire.
    Senator Gillibrand. Yes. Will this proposed cut make it 
harder for women to get prenatal care, increase the likelihood 
of premature births, or reduce the number of babies born 
healthy?
    Secretary Perdue. The WIC program will be completely funded 
for all those who use it. The money will be going down based on 
the expectation of lower utilization.
    Senator Gillibrand. The amount that the President puts in 
the budget, will it be based on what you recommend to him? Do 
you recommend a lower amount?
    Secretary Perdue. We recommend an amount that we estimate 
will be utilized.
    Senator Gillibrand. Mm-hmm.
    Secretary Perdue. The usage, if there is a cushion and a 
reserve there--if, for instance, we have a higher utilization 
than is estimated, that reserve money in WIC will be utilized 
to serve the people who come and apply for WIC.
    Senator Gillibrand. Okay. I want to build on what Senator 
Brown covered on the SNAP proposed rule on waivers. From the 
questions you have received over the past 2 days it should be 
obvious that the recent proposed rule to limit the State's 
ability to apply for ABAWD waivers is a non-starter, having 
been rejected in both the House and the Senate. I want to know 
why you chose to pursue the rulemaking process anyway.
    I know that when Senator Sanders asked you on what did you 
base your decision to propose this rule you said you were 
acting on the work of the House. Obviously that is not what the 
law says. So I am very disturbed about that answer.
    Second, did anyone with the USDA conduct an analysis of how 
this would actually affect the food security for low-income 
people?
    Secretary Perdue. What the law says, that you voted for and 
passed--I assume you voted for it; it passed fairly 
overwhelmingly there--it says that requires 20 hours of work 
there. Then it says the Secretary may waive those requirements 
there, and we are waiving some of those, those not those for 
able-bodied adults without dependents. We are complying with 
the law with the proposed rule as passed.
    Senator Gillibrand. Have you done any analysis about how 
this affects people who are disabled or mentally ill or are 
veterans, people who are in foster care, our foster youth, 
anyone who has mental health issues?
    Secretary Perdue. Senator, the rule we have proposed, that 
you are commonly to as the ABAWD----
    Senator Gillibrand. Mm-hmm.
    Secretary Perdue [continuing]. ABAWD is an acronym for 
able-bodied working adults without dependents, adults able to 
work, not disabled, not in any way with children or dependents. 
These are people who are able to work and have no dependents, 
and that is who we are addressing the rule, giving States a 
certain----
    Senator Gillibrand. Mm-hmm. Well, one of the problems is 
that----
    Secretary Perdue. I was waiting for you----
    Senator Gillibrand. Oh, keep going. Yes.
    Secretary Perdue [continuing]. to hear from your staff 
before finishing my answer.
    Senator Gillibrand. Go ahead. Finish.
    Secretary Perdue. The provisions we are proposing in the 
rule give States some waivers for areas where high unemployment 
may occur for loss of a company or different things like that.
    Senator Gillibrand. Right.
    Secretary Perdue. You all also provided for a 12 percent 
cushion for States they could use for any purposes. We do not 
believe that in States where unemployment is 4 percent that 
people should--able-bodied adults should be able to stay on 
work, on food assistance interminably. That was the--when you 
talk about the integrity of the law, that was the proposal that 
was signed, the law that you still have passed, by amendment, 
this past year.
    Senator Gillibrand. Yes, and I think the purpose of the law 
was for you to use your discretion. So what I am asking you is 
what discretion did you use and whether you had an analysis 
done to inform your discretion. For example, we have places all 
across rural upstate New York where there is so little work 
available, they do not have the jobs. You also have young 
adults who are in much more precarious situations. So, for 
example, a foster youth who might be 19 or 20 years old, he or 
she may not have the full capacity or the training he needs to 
get a job in the area.
    So I am just asking, you know, what kind of pushback have 
you done, from an analytical perspective, about where you 
should use your discretion, because we do not want hungry 
people in America. We do not want people who are starving. We 
want to use the wealth and resources we have in this country. I 
just am asking, how did you use your discretion and what facts 
did you look at, and did you actually have the opportunity to 
understand perhaps why someone who might be considered able-
bodied is not actually working, what the actual impediment for 
them is?
    Secretary Perdue. The law that you passed still allows for 
120 days for those people that you are talking about to be on 
food assistance. For the people you talk about where jobs are 
not available, that is the unemployment delta that would allow 
for a waiver in those areas where they exist.
    Senator Gillibrand. So let us just say it is a persistent 
problem and there is underemployment and unemployment, and you 
are only allowed 30 days of assistance for--or 3 months of 
assistance, excuse me--in a 3-year period. So if that person 
cannot get a job, giving them access to 3 months of food 
assistance is not necessarily enough if they cannot get a job. 
People want to be working.
    Secretary Perdue. Senator, as I understand the labor 
statistics right now, I believe we have about 7.5 million jobs 
available and 6.5 million people unemployed, almost a delta of 
1 million jobs going lacking. So that would be one of the 
basis.
    Senator Gillibrand. Okay. Well, thank you, Mr. Secretary. I 
did not realize I was over time. I was very excited about my 
questions. Sorry, Mr. Chairman.
    Chairman Roberts. That is fine. Thank you.
    This is going to conclude our hearing today. Secretary 
Perdue, thank you for your efforts to ensure this farm bill is 
implemented promptly in the way the Congress intended. Farmers 
and ranchers across the country are depending on you. You know 
that. I know that. They are also depending on Senator Stabenow 
and myself and every member on this Committee.
    To my fellow members, we would ask that any additional 
questions you may have for the record be submitted to the 
Committee clerk five business days from today, or by 5 p.m. 
next Thursday, March 7th.
    The committee is adjourned.
    [Whereupon, at 11:46 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           FEBRUARY 28, 2019

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           FEBRUARY 28, 2019

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                           FEBRUARY 28, 2019

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre></body></html>
